                                         UNITED STATES DEPARTMENT OF EDUCATION 

                                              OFFICE OF INSPECTOR GENERAL 

                                                                    REGION V 

                                                            III NORTH CANAL, SUITE 940 

                                                              CHICAGO, ILLINOIS 60606 


                                                                  FAX: (312) 353-0244
     Audit                                                                                                                                    Investigation
(312) 886·6503                                                                                                                               (312) 353·7891




                                                                                                       FEB 24 tOfU                                            f:




                                                                             Control Number ED-OIG/A05-C0022

                 Dr. Robert H. Willis, Superintendent 

                 Community Consolidated School District 62 

                 777 E. Algonquin Road 

                 Des Plaines, IL 60016 


                 Dear Dr. Willis:

                 This Final Audit Report presents the results of our audit of Community Consolidated
                 School District 62' s (District) administration of the 21 sl Century Community Learning
                 Centers (21 sl Century) grant for the period June 1,2000, through May 31,2002. Our
                 objective was to determine whether the District properly accounted for and used 21 sl
                 Century grant funds in accordance with the Elementary and Secondary Education Act of
                 1965 (ESEA), as amended, Education Department General Administration Regulations
                 (EDGAR), grant terms, and the cost principles in Office of Management and Budget
                 (OMB) Circular A-87.

                 We provided a draft of this report to the District. The draft report identified $37,285 in
                 unallowable costs and $170,542 in unsupported costs. In its response dated December
                 26, 2002, the District provided explanations and additional documentation to address
                 unallowable and unsupported 21 st Century costs. The District disagreed with our
                 recommendations in finding 2. Based on the District's response, we concluded that the
                 District adequately supported $94,061 of the $170,542 of unsupported costs discussed in
                 the draft report and reclassified them as recommended for acceptance. We also
                 reclassified the remaining $76,481 of unsupported costs as unallowable. Other than the
                 reclassifications, we have not made any changes to our findings or recommendations.
                 We have summarized the District's comments after each finding, and have included the
                 response as Attachment 2.

                                                                AUDIT RESULTS

                 The District did not properly account for and use 21 sl Century grant funds in accordance
                 with the applicable regulations, grant terms, and cost principles. The District charged the
                 grant for unallowable costs ($113,766). Also, the District maintained excess federal cash
                 that resulted in an imputed interest cost of$12,943.


                       Our mIssIon Is to promote the effIcIency. effectiveness, and IntegrIty of the Department's programs and oparatlons.
Final Audit Report                                                       ED-OIG/A05-C0022


Finding No.1 	         The District Charged Costs to the 21 st Century Grant That Are
                       Unallowable

The District did not properly account for and use 21 st Century grant funds in accordance
with the applicable regulations, grant terms, and cost principles. As a result, the District
charged costs to the 21 sl Century grant that are unallowable ($113,766). The unallowable
                                                                                               f:
costs are for payroll ($76,289), fringe benefits ($3,572), travel ($20,309), supplies
($9,617), and transportation ($3,979).

OMB Circular A-87, Cost Principles/or State, Local, and Indian Tribal Governments,
Attachment A, Paragraph C.l (1997) provides, in part, that

        To be allowable under Federal awards, costs must ... Be necessary and
        reasonable for proper and efficient performance and administration of Federal
        awards ... Be allocable to Federal awards ... Be adequately documented.

The District's Business Office Manager told us there were two reasons for the
unallowable costs. Her department hired new people and they made errors. For example,
they charged employee payroll to the wrong account. Also, she said there was poor
communication between the Director and her staff. Because this is the last year of the
grant, we will not recommend that the District train new personnel in accounting for
federal funds.

Details of the unallowable costs are discussed in Attachment 1.

Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
instruct the District to

 1.1    refund to the Department of Education unallowable costs of $113,766.

Auditee Comments

 The District provided documentation to address the unallowable and unsupported costs
 discussed in the draft report. The District stated the errors encountered during the audit
 period were isolated events that resulted from a series of unfortunate circumstances
 within its accounting and accounts payable departments. The District also stated that the
 former Director utilized questionable accounting and spending practices. The new
 Director and her staff have put into place a number of controls which did not exist in the
 past.




                                               2

Final Audit Report                                                              ED-OIG/A05-C0022


Auditor's Response

After reviewing the documentation, we concluded that it did not provide any basis for
reclassifying any of the $37,285 of unallowable costs in the draft report as costs
recommended for acceptance. Of the $170,542 of unsupported costs in the draft report,
the documentation led us to reclassify $94,061 as recommended for acceptance and
$76,481 as unallowable. The District did not provide any do~umentation indicating what
controls it put into place.

Finding No.2            The District Maintained Excess Cash

The District maintained excess cash because it did not comply with cash management
requirements contained in EDGAR.

The Uniform Administrative Requirements for Grants and Cooperative Agreements to
State and Local Governments, Standards for financial management systems require, in
part, that

        Procedures for minimizing the time elapsing between the transfer of funds from
        the U.S. Treasury and disbursement by grantees ... must be followed whenever
        advance payment procedures are used ... When advances are made by ...
        electronic transfer of funds methods, the grantee must make draw downs as close
        as possible to the time of making disbursements .... 34 C.F.R. § 80.20(b)(7)
        (2000).

In addition, the regulations regarding payment require that

        Methods and procedures for payment shall minimize the time elapsing between
        the transfer of funds and disbursement by the grantee ... in accordance with
        Treasury regulations at 31 CFR part 205. 34 C.F.R. § 80.21 (b) (2000).

 The Treasury regulations provide that recipients

         ... shall request funds not more than 3 business days prior to the day on which it
         makes a disbursement. .. , 31 C.F.R. § 205.7(c)(4)(2000).

 The District drew down both year 1 ($399,289) and year 2 funding ($400,494) on August
 6,2001. The District deposited federal funds in its general fund's interest-bearing bank
 account. It did not credit any interest earned by 'those funds to the 21 st Century grant.
 The District made several disbursements of federal funds between the period August 6,
 2001, and June 30, 20021. However, as of June 30, 2002, the District still had not


 1Our review of cash covered the period June 1,2000, through June 30, 2002. We extended the audit 

 period one month because the District's fiscal year ends on June 30. 



                                                   3
Final Audit Report 	                                                                ED-OIG/AOS-C0022


disbursed $28,594 of the draw down. The District did not have controls in place to
minimize the time between drawing down funds and paying for grant activities.

Because the District maintained excess cash, the U.S. Government incurred an imputed
interest cost. We calculated imputed interest of $12,943 2 for the period June 1,2000,
through June 30, 2002.
                          r.­


Recommendations

We recommend that the Assistant Secretary for Elementary and Secondary Education
instruct the District to

2.1 	 remit to the Department of Education $12,943 of imputed interest; and

2.2 	 implement controls to ensure that it minimizes the time between drawing down
      funds and paying for grant activities.

Auditee Comments

The District agreed that it drew down funds for both years on the same day. The District
discovered, well into the fIrst year of the grant, that the Director had not drawn down any
of the grant funds, so it "fronted" the fIrst year's expenditures. It also lost all interest
income for the entire fIrst year of the grant. As a result, the District disagreed with our
recommendation to remit the imputed interest to the Department of Education. The
District feels because it lost interest income for the fIrst year, the interest we imputed
equals the interest lost, creating a "wash." The District also disagreed with our
recommendation to implement controls to minimize the time between draw down of
funds. The District said it has implemented numerous changes in its grant accounting and
personnel.

Auditor's Response

 After reviewing the District's response, we did not change our recommendations. The
 Director's responsibility is to be knowledgeable about the grant regulations and
 requirements, including drawing down funds. The argument that the District lost interest
 income in the fIrst year is not persuasive. The regulations require that recipients time
 draw downs to minimize the time elapsing between obtaining and disbursing the funds.
 The District did not provide documentation to support that it made changes in its grant
 accounting, or that current staff have the knowledge to properly administer the grant.




 2 Using the applicable U.S. Treasury Current Value of Funds rate for each calendar year, ranging from five
 to six percent, and allowing three days after each draw down, we calculated imputed interest of $12,943 for
 the 21'1 Century grant.


                                                      4
Final Audit Report                                                       ED-OIGtA05-C0022


                                  OTHER MATTERS 


The District misclassified three transactions totaling $10,734. It charged professional
services fees to supplies. In a response to an exception report, the District stated the
misclassification was due to a misinterpretation of accounting codes by the Director.

                                    BACKGROUND

Title X, Part I, of the ESEA, as amended, authorizes the 21 sl Century program. The 21 sl
Century program provides grants that fund rural and inner city schools or consortia of
schools to enable them to plan, implement, or expand projects that benefit the
educational, health, social services, cultural, and recreational needs of the community.
The program, funded at $846 million for fiscal year 2001 and $1 billion for fiscal year
2002, enables schools to stay open longer and set up community learning centers.

A community learning center is an entity within a public elementary, middle, or
secondary school building that provides educational, recreational, health, cultural, and
social service programs for residents of all ages within a local community. A local
educational agency operates the community learning center in conjunction with local
governmental agencies, businesses, vocational educational programs, institutions of
higher education, community colleges, and cultural, recreational, and other community
and human service entities. The center must include no less than 4 of the 13 activities
listed in Title X, Part I, Section 10905 of the ESEA, as amended. The local educational
agency is encouraged to use the funds to accomplish activities that offer significant
expanded learning opportunities for children and youth in the community and that
contribute to reduced drug use and violence. The programs may include features to
support health needs, literacy education, children's day care services, and
telecommunications and technology education for individuals of all ages.

Since 2000, the Department of Education awarded the District the following 21 sl Century
federal funds. The award amount, by year, is

         6/1/00-5/31/01        $399,289 

         6/1/01-5/31/02        $400,494 

         6/1/02-5/31/03        $398,813 

                              $1,198,596 


 The District's 21st Century program is entitled SuccessQuest. The program is designed to
 serve 1,600 K-5 graders and all community members. The program focuses on literacy
 education, children's day care services, integrated programs, summer and weekend school
 programs, nutrition and health programs, telecommunications and technology education, ,
 and parenting programs. SuccessQuest engages a strong collaborative network with
 partners within the city of Des Plaines to foster success for children and families. The
 recipient schools are North, South, Plainfield, and Orchard Place.



                                               5

Final Audit Report                                                       ED-OIG/AOS-C0022


                     OBJECTIVE, SCOPE, AND METHODOLOGY 


The objective of our audit was to determine whether the District properly accounted for
and used 21 sl Century grant funds, from June 1, 2000, through May 31, 2002, in
accordance with the ESEA, as amended, EDGAR, grant terms, and cost principles in
OMB Circular A-87. Because the District's fiscal year ends June 30, we extended the
audit for our review of cash by one month to June 30, 20lb, to determine if the District
                                                                                                 ..
still had excess cash at the end of its fiscal year.

To accomplish our objective, we

1. 	    reviewed the financial statement and 0 MB Circular A -133 audit report for the
        year ended June 30, 2001, prepared by an independent public accountant, and the
        related working papers for the audit;
2. 	    reviewed the District's 21 sl Century grant application and budget narrative;
3. 	    reviewed written policies and procedures for budgeting, accounting, procurement,
        payroll, and fringe benefits for the 21 sl Century grant;
4. 	    reviewed accounting records;
5. 	    reviewed 100 percent of payroll transactions for all 25 salaried employees;
6. 	    judgmentally selected 18 of 31 pay periods and reviewed 100 percent of the
        payroll transactions for 223 hourly employees;
7. 	    judgmentally selected and reviewed 49 of248 non-personnel transactions, and 21
        of 34 journal voucher transactions;
8. 	    interviewed various District employees, independent public accountant personnel,
         and Department of Education personnel.

To achieve our audit objective, we relied, in part, on computer-processed data related to
the 21 sl Century program contained in the District's accounting system. We gained an
understanding of the relevant general and application controls. We verified the
completeness of the data by comparing source records to computer generated data, and
verified the authenticity by comparing computer generated data to source documents.
Based on these tests, we concluded that the data were sufficiently reliable to be used in
meeting the audit's objective.

 We conducted our on-site fieldwork at the District's administrative offices in Des Plaines, 

 IL, between July 1, 2002, and August 22, 2002. We discussed the results of our audit 

 with District officials on November 4, 2002. 


 Our audit was performed in accordance with generally accepted government auditing
 standards appropriate to the scope of audit described above.

                     STATEMENT ON MANAGEMENT CONTROLS

 As part of our review, we did not assess the adequacy of the District's management
 control structure applicable to the 21 sl Century grant, because this step was not necessary


                                               6

Final Audit Report                                                       ED-OIG/AOS-C0022


to achieve our audit objective. Instead, we relied on substantive testing of costs charged
to the 21 st Century grant. Our testing disclosed instances of non-compliance with federal
regulations, grant terms, and cost principles that led us to believe weaknesses existed in
the District's controls over the 21 st Century grant. These weaknesses and their effects are
discussed in the AUDIT RESULTS section of this report.

                     f:      ADMINISTRATIVE lVIATTERS

Statements that managerial practices need improvements, as well as other conclusions
and recommendations in this report represent the opinions of the Office of Inspector
General. Determinations of corrective action to be taken will be made by the appropriate
Department of Education officials.

If you have any additional comments or information that you believe may have a bearing
on the resolution of this audit, you should send them directly to the following Education
Department official, who will consider them before taking final Departmental action on
the audit.

                          Dr. Eugene W. Hickok, Under Secretary
                          U.S. Department of Education
                          FOB-6, Room 7E307
                          400 Maryland Avenue, SW
                          Washington, D.C 20202-8110

 Office of Management and Budget Circular A-50 directs Federal agencies to expedite the
 resolution of audits by initiating timely action on the findings and recommendations
 contained therein. Therefore, receipt of your comments within 30 days would be greatly
 appreciated.

 In accordance with the Freedom ofInformation Act (5 U.S.C. § 552), reports issued by
 the Office of Inspector General are available, if requested, to members of the press and
 general public to the extent information contained therein is not subject to exemptions in
 the Act.

                                        Sincerely,


                                     ~;~
                                     Ric~wd
                                         Regional Inspector General
                                         for Audit Services


  Attachments



                                                7

   Final Audit Report                                                              Attachment I 

   ED-OIG/AOS-C0022                                                                  Page I of2 




         COMMUNITY CONSOLIDATED SCHOOL DISTRICT 62's 

                       21 st CENTURY GRANT 

         SCHEDULE OF COSTS THAT ARE RECOMMENDED FOR 

                ACCEPTANCE AND UNALLOWABLE 

                JUNE 1,2000, THROUGH MAY 31, 2002
                   r;


                                     Costs
                           Recommended For              Unallowable                   Total Costs
Cost Category                   Acceptance                    Costs              Charged to Grant
Personnel                             $431,464                $76,289     (1)             $507,753
Fringe Benefits                         46,475                  3,572     (2)               50,047
Professional Services                   91,985                      0                       91,985
TravellMeetings                          8,282                 20,309      (3)              28,591
Supplies                                62,696                  9,617      (4)              72,313
Transportation                          16,487                  3,979      (5)              20,466
   Totals                             $657,389               $113,766                     $771,155


    (1) Represents a portion of salary that was double charged to the grant ($7,179), charges
        for employees that did not work at recipient 21 st Century schools ($36,719), and
        payroll charges not supported by after-the-fact certifications or personnel activity
        reports ($32,391). OMB Circular A-87, Attachment A, Paragraph c., Subparagraph
        3.a. (1997) states, "A cost is allocable to a particular cost objective ... in accordance
        with the relative benefits received." The requirement for after-the-fact certifications
        is contained in OMB Circular A-87, Attachment B, Paragraphs 11.h. (3) and (4)
         (1997). The Circular states that, "Where employees are expected to work solely on a
        single Federal Award ... charges for their salaries and wages will be supported by
        periodic certifications that the employees worked solely on the program for the period
        covered by the certification ... Where employees work mUltiple activities or cost
         objectives, a distribution of their salaries or wages will be supported by personnel
         activity reports or equivalent documentation ...."

    (2) Represents the fringe benefits related to the salary that was doubled charged to the
        grant ($815), charges for employees that did not work at recipient 21 st Century
        schools ($1,878), and fringe benefits related to payroll charges not supported by after­
        the-fact certifications or personnel activity reports ($879). OMB Circular A-87,
        Attachment B, Paragraph 11.d (5) (1997) states "[Fringe] benefits ... shall be
        allocated to Federal awards ... in a manner consistent with the pattern of benefits
        attributable to the individuals or group of employees whose salaries and wages are
        chargeable ...." Because the salaries are unallowable, the related fringe benefits are
         unallowable.

     (3) Represents travel costs that were not 21 st Century grant related ($16,901), and costs
         for which the District cannot provide documentation to support that the charges
Final Audit Report                                                            Attachment 1 

ED-OIGIA05-C0022                                                                Page 2 of2 


   applied to the grant ($3,408). OMB Circular A-87, Attachment A, Paragraph c.,
   Subparagraph 3.a. (1997) states, "A cost is allocable to a particular cost objective ...
   in accordance with the relative benefits received. According to OMB Circular A-87,
   Attachment A, Paragraph c., Subparagraph I j. (1997), to be allowable, costs must
   be adequately documented.

(4) Represents a supply charge for which the District did not provide any documentationl':
    to show the transfer was 21 st Century grant related. OMB Circular A-87, Attachment
    A, Paragraph c., Subparagraph 3.a. (1997) states, "A cost is allocable to a particular
    cost objective ... in accordance with the relative benefits received. Also, according
    to OMB Circular A-87, Attachment A, Paragraph c., Subparagraph I,j. (1997), to
    be allowable, costs must be adequately documented.

(5) Represents transportation costs for which the District cannot provide documentation
    to support charges applied to the grant ($3,979). According to OMB Circular A-87,
    Attachment A, Paragraph c., Subparagraph I,j. (1997), to be allowable, costs must
    be adequately documented.
l' .ll'lllU.l Il.UlJ.J.T   .t<J:!;J:'U.l{'l' 	         ED/OIG/A05C0022                               Attachment 2
                                                                                                     Page 1 of 2


                    ---...
             -: ........
                   -.......

                       ~




                     ,.­­ COMMUNITY CONSOLIDATED SCHOOL DISTRICT 62
              - - --.= =.. 	
             . ...-
                                                 777 ALGONQUIN ROAD • DES PLAINES, ILLINOIS 60016-6281



     DR. ROBERT H. WILLIS, SUPERINTENDENT                                                        TELEPHONE (847) 824-1136
                                                                                                       FAX (847) 824-0612



          December 26, 2002

          Mr. Richard J. Dowd 

          Regional Inspector General for Audit Services 

          U.S. Department of Education 

          Office of Inspector General 

          111 N. Canal Street, Suite 940 

          Chicago, IL 60606-7204 


          Re: 	 Draft Audit Report received December 5,2002                                        Page lof2 

                Control Number ED-OIGIAOS-C0022 



          Dear Mr. Dowd:

          I h.ave reviewed the 'Dra~t Audit Report' (copy attached) sent to me by your office. This letter and materi,d
          bemg forwarded to you IS intended to provide clarifying information and documentation in response to the
          findings and recommendations contained in the report.

          RESPONSE --- FINDING #1:

          In response to the draft audit report regarding Community Consolidated School District #62' s
          administration of the 21 st Century Learning Community Centers grant for the period June 1, 2000 through
          May 31, 2002, we are respectfully submitting our response. The enclosed packets are meant to serve as our
          response and explanations to draft finding # 1 and addresses unsupported and questioned items.

           I believe the errors encountered during the period covered by this audit could generally be considered
           isolated events that resulted from a series of unfortunate circumstances within our accounting and accounts
           payable departments. At the general time immediately following the grant award, four out of the five active
           employees in accounting were new to us (newly employed) including the former Director who sought this
           grant. Three employees had recently quit, two were on maternity leave, and one employee had recently been
           dismissed.
           The former Director whose job it was to oversee and administer the grant is alleged to have utilized
           questionable accounting and spending practices. Due to alleged incompetent handling of the grant and a
           sense of being overwhelmed, I believe this employee, generally gave up following the first 1.5 years of the
           grant period. My sense is that she left everyone in the dark, her staff included, and failed to properly inform
           any of her superiors of problems and/or concerns she had or was encountering. She has since left our
           employment and has been replaced by Director Nancy Bang who with her staff have done an exemplary job
           of trying to get a firm handle on this grant. I believe they have addressed the necessary accounting and
           historical documentation errors that existed. They have also put into place a number of controls, which did
           not exist in the past for their program. I think it is evident to your field audit team that they have made an
           extremely conscientious effort and invested a significant amount of time to address all concerns raised by the
           audit, to the greatest extent possible.
.l: LL......u   fiUUJ.'.L'   .tU!it'VK1'       ED/OIG/A05C0022 	                        Attachment 2
                                                                                        Page 2 of 2



                                                                                               Page 2 of2
RESPONSE --- FINDING #2:

As stated in the draft audit report, "The District drew down both year 1 ($399,289) and year 2 funding
($400,494) on August 6, 200l." The former Director in charge, alluded to in the preceding paragraph, was
alleged to be knowledgeable about the administration of this grant. However, I discovered Vlell into the first
year of the grant that she had not drawn down any of the grant funds and the district had essentially
'fronted' all money for expenditures (nearly $400,000) before it saw any grant dollars. Not only did the
district front the expenditures, but it also lost all interest income for the entire first year of the grant. When
she did finally draw down the grant money, she drew it down as you indicate with no regard to the second
year lump sum procedures and related interest that was earned. I respectfully request that this interest, in the
amount of $12,943, be forgiven due to the fact the board lost this approximate amount of interest during the
first year of the grant because it covered all grant related expenditures through July, 2001 effectively
resulting in an interest 'wash' .


RESPONSE TO RECOMMENDATIONS:

2.1 	 Per the preceding request, it is my sincere hope that you will consider not charging the District $12,943
      of imputed interest. We have an administrator and staff who are now in tune with proper accounting
      expectations and grant requirements. Therefore, this problem will not be repeated in the future.

2.2 	 As alluded to at various points in this appeal, we have implemented numerous changes in grant
      accounting and personnel. The current staff has spent untold hours, many outside the normal work day,
      to get a firm handle on past problems with an eye toward preventing them in the future and ensuring
      that grant monies are spent appropriately and, 'more importantly, for the direct benefit of our
      community.

In closing, we have continued our effort to improve our business office practices, reviewed our system and
relieved the responsible employeelDirector of her duty. We have also properly trained all new employees and
resolved staff shortages that existed during the initial grant period. For these reasons, and those listed above,
we respectfully ask that you reconsider our case. The expected payments remove funds needed to operate
our facilities in the best interests of the children of our district, especially in light of the numerous financial
constraints within which we must operate.

Under penalty of perjury, I declare the facts stated herein are true, correct, and complete.

      ur reconsideration of this matter is greatly appreciated. Further details can be provided if necessary.


v~ ttuly O~'.~
 Ray ndGunn
 Dep y Superintendent / Business Manager, School District 62

Enclosures
